   Office of Inspector General
       Audit Report

INITIAL ASSESSMENT OF FTA’S OVERSIGHT
  OF THE EMERGENCY RELIEF PROGRAM
  AND HURRICANE SANDY RELIEF FUNDS
         Federal Transit Administration


         Report Number: MH-2014-008
         Date Issued: December 3, 2013
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Initial Assessment of FTA’s Oversight                                Date:    December 3, 2013
           of the Emergency Relief Program and Hurricane
           Sandy Relief Funds
           Federal Transit Administration
           Report No. MH-2014-008


  From:    Lou E. Dixon                                                              Reply to
                                                                                     Attn. of:   JA-1
           Principal Assistant Inspector General
              for Auditing and Evaluation

    To:    Federal Transit Administrator

           In October 2012, Hurricane Sandy caused widespread damage in the mid-Atlantic
           and northeastern sections of the United States, 1 particularly to the transportation
           infrastructure in New York and New Jersey. In response to the damage, Congress
           passed, and the President signed into law, the Disaster Relief Appropriations
           Act, 2013 (DRAA) in January 2013. 2 The law’s appropriations totaled
           $50.7 billion, of which approximately $13 billion was for the Department of
           Transportation (DOT)—mostly allocated to the Federal Transit Administration’s
           (FTA) new Public Transportation Emergency Relief Program (ERP). 3 DRAA also
           directed our office to support oversight of FTA’s Hurricane Sandy relief funds.
           Accordingly, our initial assessment focused on FTA’s early efforts in response to
           Hurricane Sandy.

           Our objective was to provide an early assessment of FTA’s readiness, processes,
           and procedures to meet DRAA’s legislative and regulatory requirements,
           including FTA’s planning efforts to implement its new ERP. Specifically, we are
           reporting on (1) whether FTA met DRAA requirements to date and developed
           plans and procedures, (2) whether FTA’s plans and procedures fully addressed key
           challenges in overseeing Hurricane Sandy funds, and (3) lessons learned for FTA
           to consider as it finalizes its ERP and related guidance.
           1
             By February 6, 2013, the President declared a major disaster in 12 States and the District of Columbia.
           2
             Pub. L. No. 113-2 (2013).
           3
             The ERP was established by the Moving Ahead for Progress in the 21st Century Act, Pub. L. No. 112-141 (2012).
           FTA had yet to establish procedures governing the program at the time that Hurricane Sandy struck.
                                                                                                         2


To conduct our work, we established a Hurricane Sandy Oversight team
comprised of various Office of Inspector General (OIG) entities. Team members
toured damaged transit locations in Lower Manhattan. The team also analyzed
documents and interviewed staff from the Office of the Secretary of
Transportation (OST), FTA Headquarters, and FTA’s Regional and Hurricane
Sandy Recovery Offices in New York City to assess FTA’s emergency relief
efforts for compliance with DRAA requirements and to determine potential
challenges, risks, and opportunities for mid-course corrections. We conducted our
work between March 2013 and September 2013 in accordance with generally
accepted Government auditing standards. Exhibit A provides more details on our
scope and methodology.

RESULTS IN BRIEF
FTA complied with DRAA’s requirements through March 2013 and has made
significant progress in developing its ERP and allocating DRAA funds. For
example, FTA met DRAA’s requirement to make no more than $2 billion
available within 60 days of enactment. FTA also met DRAA’s requirements to
sign a memorandum of agreement with the Federal Emergency Management
Agency (FEMA) and publish interim ERP regulations before providing additional
ERP funds. By complying with these requirements, FTA was able to allocate
significant relief funds (almost $5.7 billion) within 4 months of DRAA’s
enactment, and awarded approximately $577 million of those funds within
5 months of enactment to reimburse affected transit agencies for their storm
response and recovery costs. FTA also went beyond DRAA’s requirements in
developing additional plans and procedures to implement its Hurricane Sandy
relief efforts, such as a Hurricane Sandy Disaster Relief Oversight Plan (Oversight
Plan) to supplement its existing oversight procedures.

While FTA’s initial response to Hurricane Sandy is noteworthy, opportunities to
more effectively allocate, obligate, and oversee relief funds remain. FTA has yet
to fully address these challenges in its oversight plans and procedures.
Specifically, FTA stated that it will rely on the results of Grantee and Project Risk
Assessments of Hurricane Sandy fund recipients to determine the type and amount
of oversight those grantees will receive. However, FTA has not finished them or
specified a completion date, 4 even though it has already awarded approximately
$577 million to 13 grantees for storm response and recovery costs. Timely
completion of the Grantee and Project Risk Assessments would enhance FTA’s
ability to identify high-risk areas and allocate oversight resources accordingly.
Some potential risks are evident based on grantees’ past performance in managing
Federal funds. For example, our review of the 13 grantees found that 4 of the
4
 In response to our work, FTA agreed to include timeframes for completing both the Grantee and Project Risk
Assessments in the next version of the Oversight Plan.
                                                                                                                        3


largest recipients of relief funds—the Metropolitan Transportation Authority
(MTA) and its subsidiaries, 5 the Port Authority of New York and New Jersey
(Port Authority), 6 New Jersey Transit Corporation (NJT), and New York City
DOT (NYCDOT)—had 76 open findings from prior FTA oversight reviews as of
August 1, 2013, resulting from non-compliance with Federal requirements,
indicating potential risks for relief funds. Further, FTA’s Oversight Plan did not
include sufficient steps to mitigate risks of improper payments, even though
DRAA stipulated that all relief funds should be considered susceptible to improper
payments. 7 For example, the Oversight Plan states that FTA would determine
whether grantees have complied with a requirement to repay the Federal share of
insurance proceeds received, but the Plan does not lay out specific steps to ensure
that FTA receives complete and accurate information to verify grantee
compliance. Finally, while FTA allocated $1.3 billion for locally prioritized
resiliency projects, 8 FTA has yet to finalize its competitive process to identify and
support larger, stand-alone resiliency projects.

In finalizing the ERP and developing related guidance, FTA has an opportunity to
consider lessons learned from Federal emergency responses and best practices for
recipients’ acquisitions based on Departmental and other Federal resources. For
example, FTA can take specific steps to mitigate risks of overpayment for services
that we and the Department of Homeland Security (DHS) OIG previously
identified. Such measures include ensuring competition and requiring independent
cost estimates. Sound contracting practices are especially critical during
emergencies and represent unique challenges given the increase in services
required and the need to provide them quickly. By incorporating lessons learned
and best practices into the ERP, FTA can more effectively coordinate with other
Federal agencies, address future emergencies, and manage Federal relief funds.

We are making recommendations to improve FTA’s oversight of the relief funds
and for FTA to consider as it finalizes the ERP and related guidance.

BACKGROUND
The Moving Ahead for Progress in the 21st Century Act (MAP-21) established the
ERP in July 2012, and it took effect on October 1, 2012. The ERP’s purpose is to
help States and public transportation systems pay for protecting, repairing, or
5
  MTA operates as MTA New York City Transit (NYCT); MTA Bus Company (MTA Bus); MTA Metro-North
Railroad (MNR); MTA Long Island Railroad (LIRR); and MTA Capital Construction Division (MTACC).
6
  The Port Authority operates the Port Authority Trans Hudson (PATH) rail service and is rebuilding the World Trade
Center Transportation Hub and site.
7
  An improper payment is any payment that should not have been made, was made in an incorrect amount, or lacks
sufficient supporting documentation for the agency to determine whether it is proper or improper.
8
   FTA has defined a resiliency project as one designed and built to address future vulnerabilities to a public
transportation facility or system due to future recurrence of emergencies or major disasters that are likely to occur again
in the geographic area in which the public transportation system is located.
                                                                                                                        4


replacing equipment and facilities that may suffer or have suffered serious damage
because of an emergency, 9 including natural disasters. The ERP is also intended to
improve coordination between DOT and DHS to expedite assistance to public
transit providers in times of disasters and emergencies.

On October 29, 2012—28 days after the ERP took effect—Hurricane Sandy hit
the Northeast section of the United States. Transit agencies experienced
substantial damage to their infrastructure and incurred significant costs to restore
service after the storm. For example, MTA estimated its storm-related repair and
restoration costs to be over $4 billion. Figure 1 shows flooding at MTA’s South
Ferry Subway Station located in Lower Manhattan, which opened in 2009 at a cost
of approximately $527 million and was destroyed by the storm.

Figure 1. MTA’s South Ferry Subway Station Destroyed by Hurricane
Sandy




Source: MTA Photo from FTA’s Superstorm Sandy Public Transit Projects - Review of Cost
Estimate Draft Final Report.

DRAA provided the first funds for ERP—$10.9 billion 10—and up to .75 percent
of the ERP funds retained 11 were for FTA administrative expenses and program
management oversight. Nonetheless, FTA faced time and resource constraints in
developing its ERP while also immediately addressing the allocation and
obligation of relief funds. FTA carries out its ERP responsibilities through its
Headquarters and regional offices. FTA’s regional offices in New York, NY;

9
  Emergencies are defined as natural disasters affecting a wide area or as catastrophic failures resulting from an external
cause, and as a result, the governor of a State has declared an emergency and the Secretary of Transportation has
concurred, or the President has declared a major disaster.
10
   As a result of the Budget Control Act of 2011 (Pub. L. 112-25), $545 million (5 percent) was cut through
sequestration.
11
   DRAA allowed the Secretary to transfer up to $5.383 billion to other DOT agencies to carry out projects related to
reducing risk of damage from future disasters in areas impacted by Hurricane Sandy. DRAA also transferred $6 million
($5.7 million after sequestration) of FTA’s ERP funds to our office for oversight.
                                                                                  5


Boston, MA; and Philadelphia, PA, cover the areas most affected by Hurricane
Sandy and will primarily be responsible for local oversight of DRAA funds. FTA
also utilizes contractors to conduct project and program oversight.

FTA contracted with five Project Management Oversight Contractors (PMOC) to
perform a 60-day damage assessment and provide a report. The report—dated
January 31, 2013, and released in May 2013—reviewed the cost estimate
processes that affected transit agencies used to determine the reasonableness of the
recovery, restoration, and resiliency cost estimates. The PMOCs undertook
additional work during February 2013 and released a supplemental report on
July 29, 2013. This supplemental report provided an update on the status of the
storm-related projects, including current incurred or estimated capital costs and
project schedules, many of which were completed as part of the service recovery
effort. The report also noted that resiliency projects would require further scope
development and cost validation.

Also in response to Hurricane Sandy, the President signed an Executive Order on
December 7, 2012, creating the Hurricane Sandy Rebuilding Task Force chaired
by the Secretary of Housing and Urban Development. The President charged the
Task Force with identifying and working to remove obstacles to resilient
rebuilding while taking into account existing and future risks and promoting the
long-term sustainability of communities and ecosystems in the Sandy-affected
region. The Task Force released its final report, Hurricane Sandy Rebuilding
Strategy: Stronger Communities, A Resilient Region, in August 2013 containing
recommendations for Federal and local agencies to consider in rebuilding and
improving resiliency.

FTA MET DRAA REQUIREMENTS TO DATE, ALLOCATED
SIGNIFICANT FUNDS, AND DEVELOPED PLANS AND
PROCEDURES TO CONDUCT OVERSIGHT
FTA complied with DRAA’s requirements to date, made significant progress in
developing its ERP, allocated almost $5.7 billion in relief funds, and awarded
approximately $577 million of those funds to reimburse affected transit agencies.
FTA also developed plans and procedures beyond those required by DRAA to
implement its Hurricane Sandy Relief efforts, such as a Hurricane Sandy Recovery
Staffing Plan, DRAA Grant Making and Grants Management Toolkit (Toolkit),
and Oversight Plan.

FTA Complied With DRAA’s Requirements to Date
Given the timing of ERP’s establishment, FTA had not yet instituted procedures
governing the ERP when Hurricane Sandy struck in late October 2012. Therefore,
                                                                                                      6


after the hurricane, FTA had to establish procedures for the ERP, allocate DRAA
funds, and comply with DRAA’s additional requirements. For example,

• FTA made no more than $2 billion available within 60 days of DRAA’s
  enactment.

• FTA signed a memorandum of agreement with FEMA covering each agency’s
  roles and responsibilities and published interim regulations for its ERP before
  providing additional funds.

• DOT met the deadline for submitting an internal control plan no later than
  March 31, 2013, for its funds in accordance with Office of Management and
  Budget (OMB) criteria. 12 DOT’s plan summarized FTA’s internal control
  plans for its DRAA funds.

Figure 2 summarizes the steps FTA had taken at the time of our audit to allocate
its DRAA funds and comply with DRAA’s requirements.

Figure 2. Timeline of DRAA Compliance and Allocation of FTA’s ERP
Relief Funds, February Through May 2013




Source: OIG developed based on FTA and DOT documents.

Within 4 months of DRAA’s enactment, FTA made almost $5.7 billion of relief
funds available for recipients through two allocation notices published in
March and May of 2013. This amount includes $1.3 billion for locally prioritized
resiliency projects. FTA is still working with the recipients to identify the specific
resiliency projects that will be funded. FTA awarded $576.6 million to 13 grantees
for response and recovery costs. 13 See exhibit B for additional information about
the allocations and awards, including descriptions of the projects funded.

12
   OMB Memorandum: M-13-07, Accountability for Funds Provided by the Disaster Relief Appropriations Act,
Mar. 12, 2013.
13
   FTA awarded all of these funds by the end of June 2013, within 5 months of DRAA’s enactment.
                                                                                    7


FTA Developed Hurricane Sandy Plans and Procedures Beyond
DRAA Requirements
FTA went beyond DRAA requirements in developing a Hurricane Sandy
Recovery Staffing Plan and establishing the Hurricane Sandy Recovery Office in
its regional office in New York City. The staffing plan identifies the need for
40 FTA Hurricane Sandy Recovery positions across 3 regional offices and several
Headquarters offices. FTA started the Sandy Recovery Office with existing staff
from the New York City regional office and detailees from an internal competitive
announcement. FTA plans to increase staffing incrementally as it obtains a clearer
picture of its workload. FTA said that it had filled 6 Hurricane Sandy positions
and that 22 positions were in various stages of the hiring process as of
August 20, 2013.

In addition, FTA issued a Toolkit, dated April 12, 2013, to provide a reference for
FTA staff as they work to ensure successful obligation and expenditure of relief
funds. The Toolkit included FTA’s Oversight Plan, in which FTA outlined a risk-
based oversight framework to provide additional oversight tools for projects and
grantees beyond the Agency’s typical oversight process and allocate its oversight
resources. The Oversight Plan contains a list of oversight goals to guide FTA as it
delivers oversight of relief funds, including deploying oversight resources in a
proactive, risk‐based, and efficient manner, ensuring FTA has adequate internal
controls to prevent and detect improper payments, and ensuring every effort is
made to deter, detect, and report waste, fraud, and abuse.

FURTHER FTA ACTIONS ARE NEEDED TO MORE EFFECTIVELY
OVERSEE RELIEF FUNDS
FTA faces specific challenges in effectively allocating, obligating, and overseeing
relief funds and has yet to fully address them in its oversight plans and procedures.
Specifically, FTA’s Oversight Plan relies on the results of Grantee and Project
Risk Assessments of Hurricane Sandy fund recipients to determine the type and
amount of oversight those grantees will receive, but it does not require a
timeframe for their completion. In addition, FTA’s Oversight Plan did not include
sufficient steps to mitigate risks of improper payments that FTA and others
identified from previous infusions of significant Federal dollars into programs.
Finally, while FTA allocated $1.3 billion for locally prioritized resiliency projects,
it is still developing a process for allocating the remaining resiliency funds on a
competitive basis.

FTA Has Not Completed Grantee and Project Risk Assessments
FTA’s Oversight Plan states that FTA will rely on the results of Grantee and
Project Risk Assessments to determine the type and amount of oversight Sandy
                                                                                                                    8


grantees will receive, but FTA has not specified a timeframe for completing the
assessments. FTA did not complete any Grantee or Project Risk Assessments prior
to awarding approximately $577 million to 13 grantees for storm response and
recovery costs. 14 According to FTA, it will include timeframes for completing
both in the next version of the Oversight Plan. In the current Oversight Plan, FTA
committed to considering the following when conducting the Grantee Risk
Assessment: the most recent annual Grantee Oversight Assessment; 15 all triennial,
State management, procurement systems, financial management, and civil rights
reviews in the past 5 years; and A‐133 Single Audits over the past 3 years. For
Project Risk Assessments, FTA plans to consider the results of the Grantee Risk
Assessment and to evaluate project risk in terms of complexity and other factors,
resulting in the assignment of a project risk rating and development of
individualized oversight plans.

The lack of Grantee and Project Risk Assessments is concerning, because it
hinders FTA’s ability to allocate oversight resources to high-risk areas. Our review
of the 13 grantees found that 4 of the largest recipients of relief funds—MTA and
its subsidiaries, Port Authority, NJT, and NYCDOT—had 76 open findings from
prior FTA oversight reviews dating as far back as fiscal year 2001 in FTA’s
oversight tracking system 16 as of August 1, 2013. These open findings indicate
potential risks for the efficient and effective use of relief funds. For example,
NYCDOT had two findings in its fiscal year 2011 Triennial Review that repeated
unresolved findings from its fiscal year 2008 review. The open, repeat findings are
related to excessive delays in project implementation and inactive grants or
untimely grant closeouts. Completion of the assessments will assist FTA in
determining whether these findings are still relevant and the degree to which
enhanced oversights activities may be needed.

Furthermore, while FTA has taken proactive steps, FTA cannot fully address the
potential for fraud until its Risk Assessments are complete. For example, our work
has shown that fraud risk increases with substantial infusions of funding, and our
investigations have repeatedly found significant Disadvantaged Business
Enterprise (DBE) fraud, including on MTA and Port Authority projects. In
addition, we recently reported on weaknesses in DOT’s DBE program and found
that DBE fraud and abuse cases have increased significantly, 17 which indicates
this is a potential risk for Sandy relief contracts. In the Oversight Plan, FTA
14
   In August 2013, FTA provided us with completed Grantee Risk Assessments for 4 of the 13 grantees—Port
Authority, PATH, Westchester County DOT, and the City of Long Beach (NY).
15
   FTA conducts Grantee Oversight Assessments annually to determine its allocation of program oversight resources
across its 10 regions for the upcoming fiscal year.
16
   OTrak is the official record keeping system for FTA’s oversight program. It provides FTA regional and headquarters
staff and FTA oversight contractors with a central repository for all program oversight activities and review documents
conducted at the grantee level.
17
   OIG Report Number ZA-2013-072, Weaknesses in the Department’s Disadvantaged Business Enterprise Program
Limit Achievement of Its Objectives, Apr. 23, 2013.
                                                                                                                    9


indicated that it would use technical assistance and records sampling and review
procedures to address the fraud risk and has taken some of these steps. For
example, FTA provided tips from our past work on identifying waste, fraud, and
abuse to its regional staff and grantees. Furthermore, FTA is requiring recipients
receiving over $100 million to hire and use independent Integrity Monitors, 18 a
practice that has prevented and detected fraud. 19 Integrity Monitors can also help
to mitigate the risk of overpayment for services by conducting forensic reviews of
payment requisitions and supporting documentation, payments, change orders, and
by conducting reviews for indications of bid rigging and overcharging. However,
the results of the Grantee and Project Risk Assessments are important for
overseeing recipients that will receive less than $100 million, as those assessments
can focus the scope of FTA’s sampling and review procedures to help identify
potential waste, fraud, and abuse.

FTA’s Hurricane Sandy Oversight Plan Did Not Include Sufficient
Steps To Mitigate Risks of Improper Payments
DRAA identifies all relief funds as “susceptible to significant improper payments”
under the Improper Payments Information Act of 2002, and FTA’s Oversight Plan
identified the susceptibility of Hurricane Sandy relief funds to improper payments
as an oversight challenge. Accordingly, the Oversight Plan mentions that FTA will
review random samplings of payments made under the ERP grants as one way to
identify and recover improper payments. However, the plan does not include
sufficient steps to mitigate risks of improper payments in the following areas:

• Change Orders: FTA’s Oversight Plan describes the review of change orders
  over $200,000 as a strong oversight tool based on lessons learned, but it does
  not specify review requirements for relief funds. According to the Oversight
  Plan, FTA will use the outcome of the Risk Assessment process to determine if
  some review of change orders is warranted. Without specific procedures
  requiring FTA to review change orders, using a dollar threshold or risk-based
  criteria, FTA lacks assurance that this identified risk will be addressed.

• Duplicate Payments: FTA and FEMA are not fully implementing the controls
  described in the memorandum of agreement and Oversight Plan to prevent
  duplicate payments. According to the Oversight Plan, under the terms of their
  memorandum of agreement, FTA and FEMA are to notify each other of all
  requests for public transit-related assistance of any kind, establish a joint
  tracking system for such requests, and manage requests so that the two
  agencies do not reimburse an entity for the same activity. According to FTA,

18
   Integrity Monitors are independent organizations that bring together various disciplines of expertise, including but
not limited to legal, auditing/accounting, investigative, engineering, and environmental.
19
   OIG Report Number MH-2010-066, Actions Needed to Mitigate Risks Associated With the Access to the Region’s
Core Project, May 17, 2010.
                                                                                 10


   FTA and FEMA are communicating on grant awards, and FEMA zeroed out a
   funding request for a grantee we identified in our draft report after FTA
   funding became available. However, the two agencies have not implemented a
   joint tracking system that (1) systematically identifies all requests that either
   FTA or FEMA receive for public transit-related assistance and (2) collects
   information about how each agency addresses those requests, including any
   awards they make to grantees. While we have not identified duplicate
   payments at this time, and recognize that ongoing interagency communication
   is important, informal interaction between FTA and FEMA is no substitute for
   a formal mechanism to track and manage the disposition of any public transit-
   related assistance requests made to either agency. Without a formal tracking
   system, FTA lacks a key internal control for preventing duplicate payments as
   the volume of grants and expenditures increase. Implementing such a system
   would also better address DRAA’s designation of all programs receiving relief
   funds as susceptible to improper payments.

• Insurance Proceeds: In its Oversight Plan, FTA states that it will determine
  whether grantees have complied with a requirement to repay FTA for the
  Federal share of insurance proceeds received. However, the Plan does not lay
  out specific steps to ensure that FTA receives complete and accurate
  information. FTA is relying on grantees to self-report information on the status
  of insurance claims made and proceeds received on a monthly basis. Yet, the
  Oversight Plan does not describe procedures to verify the accuracy of this
  information, heightening FTA’s risk of providing duplicate compensation for a
  grantee’s losses.

• Asset Insurance: FTA has not developed procedures to determine whether the
  assets damaged by Hurricane Sandy were adequately insured in accordance
  with FTA Circular 5010.1D. The Circular requires grantees to carry flood
  insurance for all assets with an insurable value greater than $10,000 and
  located in a special flood hazard area. As such, FTA could provide funds to
  replace damaged assets that were required to be insured in accordance with the
  Circular. According to FTA officials, FTA has obtained contractor expertise in
  this area and is discussing these insurance issues with the recipients and FEMA
  but has not determined how it will address them.

• Disposition of Damaged or Destroyed Assets: FTA’s Oversight Plan does
  not contain specific steps to ensure that grantees comply with FTA
  requirements in terms of the disposition of damaged or destroyed assets.
  Although FTA determined that federally funded assets seriously damaged or
  destroyed by Hurricane Sandy have no remaining useful life, recipients may
  have a financial obligation to FTA for assets that have a fair market value in
  excess of $5,000 at the time of disposition. Our review of open findings in
                                                                                                                     11


     FTA’s oversight tracking system indicates that some grantees may lack
     information to enable FTA to accurately assess their compliance with these
     requirements. For example, MTA had four open findings related to a lack of an
     updated biennial inventory for its federally funded assets. If MTA’s inventory
     is incomplete or inaccurate, it may have trouble identifying federally funded
     assets and determining the fair market value.

• Force Account Plans: FTA has not established plans to conduct oversight of
  grantees’ force account plans. FTA requires recipients to maintain a force
  account plan 20 detailing the use of their own labor forces to carry out ERP-
  funded projects before incurring costs, unless waived. However, FTA did not
  require prior approval of force account plans for emergency response and
  recovery work. FTA said it could randomly select for review the force account
  plan of any project and intends to do some checks to determine whether
  grantees have force account plans. However, FTA did not articulate in its
  Oversight Plan whether it had a methodology for sampling grantee force
  account plans, whether it would determine that the plans meet FTA
  requirements, or when it would complete such reviews.

FTA Has Yet To Finalize Its Process for Providing Resiliency Funds
on a Competitive Basis
FTA decided to allocate $1.3 billion on a prorated basis for locally prioritized
resiliency projects in its May 29, 2013, notice but it is still finalizing its criteria for
allocating the remaining resiliency funds on a competitive basis. FTA plans to
issue a future notice to specify appropriate eligibility and evaluation criteria for
those funds. This notice will need to include clear criteria for allocating and
obligating the funds and documenting the decisions made.

FTA allocated the first $1.3 billion in resiliency funds to provide funds for lower
cost, stand-alone resiliency improvements that can be implemented relatively
quickly and that would prove cost effective when implemented in tandem with
recovery and rebuilding projects. FTA made decisions for allocating the funds on
a prorated basis using the damage assessments for recovery projects, not the
preliminary estimated costs for resiliency projects—both of which were included
in FTA’s 60-day damage assessment report and updated in the supplemental
report. FTA said it did not make the allocations using the resiliency estimates,
because they did not include all possible resiliency projects. However, the initial
allocation of recovery funds was not intended to be all-inclusive, as evidenced by
the forthcoming notice on competitively allocated resiliency funds. Further, FTA


20
   Force account work is the grantee’s use of its own labor forces to carry out projects. Any one of the following four
conditions may warrant the use of a recipient’s own labor force: (1) cost savings, (2) exclusive expertise, (3) safety and
efficiency of operations, and (4) union agreement.
                                                                                      12


did not provide a rationale for how the recovery damage assessments served as a
more reasonable basis for allocating funds for the resiliency projects.

Finally, FTA is still developing definitions and procedures it will apply in
evaluating grantees’ requests for future resiliency funds. FTA’s ERP interim final
rule requested public comment on the definitions for “resilience” and a “resiliency
project.” Many different possible definitions exist that FTA will need to consider.
Four organizations commented on the definition of “resiliency project,”
demonstrating the wide range of opinions. Their comments provide insight into the
challenges FTA must work through in finalizing standard definitions. Two
suggested that FTA delete the phrase “likely to occur” from the definition, while
another suggested deleting the definition entirely. In addition, MTA recommended
that planning activities be included in the definition, along with design and
construction. NYCDOT recommended that the eligibility requirements for
resiliency projects allow projects that enhance network resiliency and network
redundancy—not just those that narrowly target the physical protection of a
specific piece of infrastructure. In addition, the Hurricane Sandy Rebuilding Task
Force Report contained recommendations based on a broader definition of
resilience than FTA proposed. The report recommends applying “Infrastructure
Resilience Guidelines”—such as adhering to resilience performance standards that
could include criteria on how strong of a storm a system should be able to
withstand—to all Federal infrastructure investments and Sandy recovery projects.
This report’s definition creates a challenge in resiliency project cost estimation
and award selection at a time when resilience performance standards for
infrastructure are still under development. FTA stated that it does not plan to issue
its final definitions for “resilience” and a “resiliency project” until the fall of 2013.

APPLYING LESSONS LEARNED FROM FEDERAL EMERGENCY
RESPONSES WILL HELP FTA TO EFFECTIVELY FINALIZE ITS
ERP AND RELATED GUIDANCE
In establishing its ERP and related guidance, FTA has opportunities to consider
lessons learned from Federal emergency responses, as well as best practices for
recipients’ acquisitions based on Departmental and other Federal resources. In
doing so, FTA will be more effective in coordinating with other Federal agencies,
dealing with future emergency responses, and managing Federal relief funds.
Specifically, FTA can consider:

• Mitigating the risk of overpayment for some services in emergencies.
  Sound contracting practices are especially critical during emergencies and
  represent a challenge given the increase in services required and the need to
  provide them quickly. FTA could incorporate measures to mitigate
                                                                                                         13


     procurement risks that our office21 and DHS OIG 22 have identified from prior
     disasters. For example, in our audit of the Mississippi Department of
     Transportation’s (MDOT) award of selected Hurricane Katrina emergency
     repair contracts, we found that MDOT did not include in its negotiated, cost-
     plus contracts a commonly used alternative pricing methodology, resulting in
     about $1.4 million in additional charges. In response, the Federal Highway
     Administration (FHWA) agreed to take actions that FTA could consider in its
     ERP guidance. Specifically, FHWA agreed to revise and strengthen its
     Emergency Relief Manual and related Federal regulations by (1) prioritizing
     the specific types of emergency repair contracts, (2) advising States to conduct
     cost/price analysis before awarding negotiated contracts, (3) providing
     alternative methods for computing equipment usage rates, (4) advising States
     on the procurement procedures for Federal reimbursements and FHWA’s right
     to minimize its participation, and (5) encouraging pre-established emergency
     repair contracts.

• Establishing timeframes to limit requests for funds years after events
  occur. The Government Accountability Office (GAO) recommended this step
  for FHWA’s ERP 23—specifically, that FHWA establish timeframes for its
  ERP to limit States’ requests for emergency relief funds and to close
  completed projects. FTA has not established such limitations because,
  according to FTA staff, it was more appropriate to consider time limitations on
  a case-by-case basis.

• Establishing a minimum amount for providing emergency relief funds.
  Similar emergency relief programs have minimum thresholds for eligible
  emergency expenses, which FTA’s ERP lacks. For example, FHWA
  established that a site must have at least $5,000 of repair costs to be eligible for
  emergency relief funds. According to GAO, a minimum threshold is intended
  to distinguish unusually large expenses eligible for emergency relief funding
  from costs that should be covered by normal maintenance funding. Yet, FTA
  provided a $1,179 Hurricane Sandy grant to one transit agency, the size of
  which suggests that it could have been covered out of regular funds. FTA
  noted that it wanted to obtain stakeholders’ input through the ERP rule-making
  process before deciding whether to establish a minimum threshold.


21
   OIG Report Number FI-2007-030, Emergency Transportation Services Contract: Lessons Learned From the 2005
Gulf Coast Hurricanes, Feb. 5, 2007; OIG Report Number MH-2006-065, Audit of the Mississippi Department of
Transportation’s Award of Selected Hurricane Katrina Emergency Repair Contracts, Sept. 6, 2006.
22
   DHS OIG Report OIG-11-30, The State of New York’s Management of State Homeland Security Program and Urban
Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008, Jan. 13, 2011; DHS OIG Report
DS-11-01, Capping Report: FY 2009 Public Assistance Grant and Subgrant Audits, Dec. 2, 2010.
23
   GAO-12-45, Highway Emergency Relief: Strengthened Oversight of Project Eligibility Decisions Needed,
Nov. 8, 2011.
                                                                                                                   14


• Incorporating procedures to review results from a sample of emergency
  acquisitions. Even though FTA does not typically review recipients’
  procurements, OMB’s Office of Federal Procurement Policy’s Emergency
  Acquisitions Guide recommends that agencies develop assessment plans to
  review results from a sample of emergency acquisitions. FTA could focus
  attention on riskier emergency relief awards, such as those that employed
  acquisition flexibilities, high-dollar sole-source awards, and those involving
  complex technical requirements. As illustrated by our audit of MDOT’s award
  of selected Hurricane Katrina emergency repair contracts, such reviews can
  identify cost-saving procurement methods.

• Including recommended procedures for recipients’ procurements. The
  Department has multiple resources that FTA can utilize in developing ERP
  procurement guidance. For example, FHWA’s Emergency Relief Manual
  provides for alternative methods for contracting to expedite emergency
  construction projects, such as using a short list of qualified contractors that
  could bid on emergency relief projects. According to FHWA’s manual, at a
  minimum, three bidders may be selected to be on the short list based on the
  following: early willingness to respond, type of work, prior demonstrated
  ability to move swiftly, availability, staff and equipment, and previous work in
  the area.

•    Reviewing large recipients’ emergency preparedness plans for federally
     funded rolling stock. FTA regularly provides significant funding for rolling
     stock (e.g., locomotives, rail cars, and buses). It is therefore critical for FTA to
     ensure that recipients’ planning is sufficient to safeguard such assets against
     emergencies. For example, NJT experienced damage to 343 pieces of
     equipment, including 70 locomotives, which were in areas that flooded during
     Hurricane Sandy. FTA stated that DHS and its Transportation Security Agency
     (TSA) are responsible for overseeing recipients’ emergency management.
     However, DHS OIG has reported that TSA, FTA, and other agencies share
     responsibilities and programs for mass transit emergencies, and that TSA has
     focused on security efforts while providing limited staff and resources to
     emergency response. 24 Further, MAP-21 mandated that the Department,
     through FTA, provide technical assistance to recipients on transit asset
     management 25 and require recipients to develop transit asset management plans
     and report on the condition of their systems. 26 Incorporating periodic reviews
     of recipients’ emergency plans and practices for rolling stock assets in the ERP

24
    DHS OIG Report OIG-10-68, TSA’s Preparedness for Mass Transit and Passenger Rail Emergencies,
Mar. 15, 2010.
25
   P.L. 112-114 Sec. 20019 § 5326 (b).
26
   This would be accomplished through a transit asset management system, defined in P.L. 112-114, Sec. 20019 § 5326
(a) as a strategic and systematic process of operating, maintaining, and improving public transportation capital assets
effectively throughout the life cycle of such assets.
                                                                                15


   or transit asset management program guidance for major or high-risk recipients
   (to be defined by FTA) could help enhance stewardship of Federal investments
   in assets.

CONCLUSION
Recognizing the urgency and amount of work required to alleviate Hurricane
Sandy’s effect on transit operations and facilities, FTA responded quickly and
effectively by assessing the damage, assisting impacted transit agencies, and
developing oversight plans. Yet, FTA’s Oversight Plan lacked specificity in key
areas, and more actions are needed to achieve its oversight goals. Moving forward,
FTA needs to put into practice its Oversight Plan’s risk-based framework and
institute additional measures to mitigate known risks and ensure that relief funds
are properly distributed and spent. At the same time, FTA must continue working
toward developing a robust ERP program that is well positioned to deal with
future transit emergency responses, provides guidance consistent with other
Government emergency programs, effectively mitigates the impact of future
disasters, and maximizes stewardship of Federal funds.

RECOMMENDATIONS
To address relief fund risks, we recommend that the Federal Transit Administrator
develop and implement procedures to:

1. Specify required timeframes to complete Grantee and Project Risk
   Assessments for all grantees that have received or will receive emergency
   relief grants.

2. Review change orders over an identified threshold or using risk-based criteria.

3. Establish a joint tracking system with FEMA, as described in the memorandum
   of agreement.

4. Check the accuracy of grantees’ reported insurance proceeds information.

5. Determine whether the assets damaged by Hurricane Sandy were adequately
   insured in accordance with requirements in FTA Circular 5010.1D and ensure
   that Federal funds are not used for items that should have been insured.

6. Confirm grantee compliance with FTA’s disposition of damaged or destroyed
   assets requirement.

7. Review a random selection of force account plans.
                                                                                 16


We also recommend that the Federal Transit Administrator:

8. Finalize criteria to allocate and obligate competitive resiliency funds.

9. Finalize ERP guidance that incorporates, as appropriate, lessons learned from
   emergencies and best practices from Departmental and other Federal
   emergency relief guidance.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FTA with our draft report on September 26, 2013. On
October 28, 2013, FTA provided its technical comments, which we incorporated
as appropriate. We received FTA’s formal management response on
November 20, 2013, which is included in its entirety as an appendix to this report.
FTA concurred with 8 of our 9 recommendations and partially concurred with 1.

For recommendations 1, 2, 4, 5, 6, 7, 8, and 9, FTA provided appropriate planned
actions and timeframes for completion. Accordingly, we consider these
recommendations resolved but open pending completion of FTA’s planned
actions.

For recommendation 3, FTA concurred and requested that we close the
recommendation, which calls for a joint tracking system with FEMA. FTA
asserted that it has sufficient controls in place, as it communicates regularly with
FEMA on grant awards. However, this action is not fully responsive to our
recommendation because it does not comply with the memorandum of agreement,
which stipulates that FTA and FEMA will notify each other of all requests for
public transit-related assistance of any kind and establish a joint tracking system
for such requests. Accordingly, we request that FTA either provide additional
information on the steps it has taken to implement a formal joint tracking system
with FEMA or work with FEMA to revise the memorandum of agreement. Until
then, we consider recommendation 3 open and unresolved.

ACTIONS REQUIRED
FTA’s planned actions for recommendations 1, 2, 4, 5, 6, 7, 8, and 9 are
responsive. In accordance with Department of Transportation Order 8000.1C, we
request that FTA provide us with information demonstrating completion of its
planned actions. These recommendations will remain resolved but open pending
receipt of this information.

For recommendation 3, we request that FTA either provide additional information
on the steps it has taken to implement a formal joint tracking system with FEMA
                                                                                17


or work with FEMA to revise the memorandum of agreement to reflect FTA’s
current position, as described in its response. We request that FTA provide us with
this information within 30 days of issuance of this report.

We appreciate the courtesies and cooperation of FTA representatives during this
audit. If you have any questions concerning this report, please call me
at (202) 366-1427 or Joseph W. Comé, Assistant Inspector General for Highway
and Transit Audits, at (202) 366-5630.

                                        #

cc: FTA Audit Liaison (TBP-30)
    DOT Audit Liaison (M-1)
                                                                               18



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from March 2013 through September 2013
in accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To meet our DRAA oversight responsibilities, our objective was to provide an
early assessment of FTA’s readiness, processes, and procedures to meet DRAA’s
legislative and regulatory requirements, including FTA’s planning efforts to
implement its new ERP. Specifically, we are reporting on (1) whether FTA met
DRAA requirements to date and developed plans and procedures, (2) whether
FTA’s plans and procedures fully addressed key challenges in overseeing
Hurricane Sandy funds, and (3) lessons learned for FTA to consider as it finalizes
its ERP and related guidance.

To support our work on these objectives, we established a Hurricane Sandy
Oversight team comprised of various OIG entities. Team members toured
damaged transit locations in Lower Manhattan. We also coordinated with GAO
regarding its ongoing Hurricane Sandy work and with DHS OIG regarding relief
provided by FEMA.

To assess whether FTA met DRAA requirements to date and developed plans and
procedures, we identified DRAA’s key requirements. We then obtained and
reviewed key documents, such as DOT’s plan for implementing DRAA, DOT’s
Sandy Internal Control Plan, the FTA/FEMA MOA, and FTA’s ERP Interim Final
Rule and Notices of Availability of Emergency Relief Funds. We compared the
documents to the requirements and determined whether they met the requirements.
We also reviewed FTA’s Hurricane Sandy Recovery Staffing Plan, Toolkit, and
Oversight Plan and interviewed OST and FTA Headquarters and Hurricane Sandy
Recovery Office staff, located in FTA’s regional office in New York City,
regarding the status of FTA’s efforts.

We analyzed FTA’s Oversight Plan to determine if it addressed key challenges in
overseeing Hurricane Sandy funds, such as risks that FTA identified therein. We
reviewed open findings in OTrak from prior FTA oversight reviews for the
13 grantees awarded approximately $577 million in Sandy funds. We also
reviewed FTA’s procedures identified in the ERP Interim Final Rule, Notice of
Availability of Emergency Relief Funds, Notices Allocating Emergency Relief
Funds, and Toolkit, as well as the Superstorm Sandy Public Transit Projects –


Exhibit A. Scope and Methodology
                                                                            19


Review of Cost Estimates Draft Final Report, Superstorm Sandy Public Transit
Projects – Review of Priority Projects Draft Supplemental Report, and Hurricane
Sandy Rebuilding Task Force report, Hurricane Sandy Rebuilding Strategy:
Stronger Communities, A Resilient Region. Further, we interviewed FTA
Headquarters and Hurricane Sandy Recovery Office staff.

We also identified lessons learned from reports on past disasters and other
Emergency Relief Programs from DHS OIG, GAO, and our office. We reviewed
procurement guidance, such as OMB’s Office of Federal Procurement Policy’s
Emergency Acquisitions Guide, DOT’s Emergency Contracting Toolkit, FTA
Circular 4220.1F, “Third Party Contracting Guidance,” FTA’s Best Practices
Procurement Manual, and FTA’s Oversight Plan, and interviewed OST and FTA
procurement staff.




Exhibit A. Scope and Methodology
                                                                                      20




EXHIBIT B. FTA’S ERP HURRICANE SANDY RELIEF FUNDS
FTA allocated over $5.6 billion of its ERP relief funds to 12 recipients, as shown
in table B-1. FTA also reserved about $28 million for agencies that have additional
costs that were not allocated under the initial allocations and have not received an
allocation based on their currently estimated cost of recovery.
Table B-1. FTA’s ERP Hurricane Sandy Relief Fund Allocations
                                           Response,
                                        Recovery, and
                                          Restoration        Resiliency
Agency, State                              Allocation        Allocation Total Allocation
MTA, NY                                 $2,896,771,774     $897,848,194   $3,794,619,968
Port Authority, NY/NJ                    1,073,024,652      287,391,637    1,360,416,289
NJT, NJ                                    341,990,757      106,199,045      448,189,802
NYCDOT, NY                                  36,752,941        8,561,124       45,314,065
Southeastern Pennsylvania                    1,192,568              -          1,192,568
Transportation Authority (SEPTA), PA
City of Long Beach, NY                         518,364              -            518,364
Massachusetts Bay Transportation               344,311              -            344,311
Authority (MBTA), MA
Westchester County DOT (WCDOT),                317,200              -            317,200
NY
Connecticut DOT (ConnDOT), CT                   55,622              -             55,622
Greater Bridgeport Transit District             21,783              -             21,783
(GBT), CT
Milford Transit District (MTD), CT               5,352              -              5,352
Rhode Island Public Transit Authority            1,179              -              1,179
(RIPTA), RI
Reserved for other agencies                 28,048,497              -         28,048,497
Total                                   $4,379,045,000   $1,300,000,000   $5,679,045,000

Source: OIG developed from FTA’s Allocation of Emergency Relief Funds, March 29, 2013, and
FTA’s Second Allocation of Public Transportation Emergency Relief Funds in Response to
Hurricane Sandy: Response, Recovery & Resiliency, May 29, 2013.

FTA obligated $576.6 million of the allocated funds to 13 grantees through
August 2013—all of these funds were awarded by the end of June 2013, within
5 months of DRAA’s enactment. The funds FTA awarded were for response and
recovery costs as detailed in table B-2.




Exhibit B. FTA’ s ERP Hurricane Sandy Relief Funds
                                                                                            21


Table B-2. FTA’s ERP Hurricane Sandy Relief Fund Obligations
                                                                                      Amount
Agency         Description                                           Award Date      Awarded
MTA            Pre-storm preparations, initial recovery work,         4/05/2013   $193,893,898
               and repair of damaged elements of MTA's
               subway, bus, and commuter rail systems in the
               New York metropolitan area
PATH           Setting up alternative commuter service                6/14/2013   $159,720,171
               between New York and New Jersey; repairing
               electric substations and signal infrastructure;
               replacing and repairing rolling stock; and
               repairing maintenance facilities
NJT            Repairing extensive flood damage to facilities,        5/02/2013   $144,416,559
               rail infrastructure, and equipment; restoring bus
               service; and operating emergency bus and
               special ferry service
Port Authority Recovery efforts, including pumping; debris            6/14/2013    $54,243,826
               clean up; and repairing or replacing damaged
               and destroyed equipment, such as electrical
               switchgear and substation equipment for the
               World Trade Center Hub project
NYCDOT         Protecting the Staten Island Ferry, East River         6/14/2013    $21,889,326
               Ferry, and Governors Island; removing debris;
               and reestablishing public transportation service
SEPTA          Activities prior to, during, and after the storm to    4/09/2013     $1,192,568
               secure, protect, and resume transit service
               serving Philadelphia and Bucks, Chester,
               Delaware, and Montgomery counties and to
               enhance customer service
City of Long   Taking emergency protective measures,                  4/26/2013      $518,364
Beach          repairing damaged maintenance facility and
               buses, and creating additional transit routes to
               compensate for the LIRR shutdown
MBTA           Monitoring routes for damage, removing                 4/25/2013      $344,311
               downed tree limbs, activating temporary shuttle
               bus, and repairing signal system
WCDOT          Emergency protective measures and restoring            4/18/2013      $317,200
               service on the Bee-Line bus system
ConnDOT        Extraordinary labor and material costs incurred        4/25/2013       $53,073
               in storm preparation
GBT            Supervision and evacuation assistance for the          5/02/2013       $21,738
               Region’s Emergency Operations Center and
               evacuations and storm clean-up
MTD            Operating expenses for evacuations,                    6/24/2013         $5,352
               transporting residents without power, and debris
               removal
RIPTA          Buses and personnel brought in to support              5/14/2013         $1,179
               evacuations of residents in Washington County
Source: OIG developed from FTA’s Transportation Electronic Award Management (TEAM) System.


Exhibit B. FTA’ s ERP Hurricane Sandy Relief Funds
                                                              22



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                 Title

Anthony Zakel                        Program Director

George Lavanco                       Project Manager

Tiffany Mostert                      Senior Analyst

Michael Dzandza                      Auditor

Rosa Scalice                         Auditor

Joseph Tschurilow                    Auditor

Terry Letko                          Program Director

Rachel Miller                        Acting Project Manager

Diane Brattain                       Senior Auditor

Kathryn Novicky                      Analyst

Curtis Dow                           Analyst

Joann Adam                           Program Director

Dory Dillard-Christian               Project Manager

Cordelia Bostic                      Auditor

Rodolfo Pérez                        Engineer Advisor

Aron Wedekind                        Engineer

Amy Berks                            Senior Counsel

Andrea Nossaman                      Senior Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                         23



           APPENDIX. AGENCY COMMENTS

                                                                    Memorandum
           U.S. Department
           of Transportation
           Federal Transit
           Administration


Subject:   INFORMATION: Management Response to the Office                      Date:   November 20, 2013
           of Inspector General Draft Report on FTA’s Oversight of
           Hurricane Sandy Relief Funds
 From:     Peter Rogoff                                                    Reply to
           Administrator
                                                                           Attn. of:   Lauren Tuzikow
                                                                                       (202) 366-2059
    To:    Lou E. Dixon
           Principal Assistant Inspector General for Audits and Evaluation

           FTA’S TIMELY RESPONSE TO THE DISASTER RELIEF APPROPRIATION ACT
           (DRAA) OF 2013
           Following Hurricane Sandy, the Federal Transit Administration (FTA) achieved significant
           progress in developing its new Public Transportation Emergency Relief Program and allocating
           almost $5.7 billion to affected transit agencies. Additionally, FTA established a robust risk-
           based oversight approach designed to prevent fraud, waste, and abuse that builds upon FTA’s
           existing and well-established grant oversight programs.

           EFFECTIVE COORDINATION WITH FEMA DEFINES RESPONSIBILITIES AND
           AVOIDS DUPLICATIVE PAYMENTS
           Contrary to the report’s assertion, FTA and the Federal Emergency Management Agency
           (FEMA) are fully implementing the controls outlined in the memorandum of agreement. In fact
           – almost immediately after Hurricane Sandy hit, FTA and FEMA began closely coordinating our
           efforts and have shared information to ensure duplicate payments did not occur. An example of
           this, although reported inaccurately by the OIG, was the over $15 million identified as being
           provided to the Long Island Rail Road (LIRR). After close FTA-FEMA coordination, FEMA
           zeroed out funding for LIRR after FTA funding became available. There is no evidence that any
           FTA recipient has received funding from FEMA for activities that FTA funded.

           RESILIENCY FUNDING BASED ON A SOUND RATIONALE
           FTA’s initial allocation of resiliency funding was based on a sound rationale as published in the
           Federal Register on May 29, 2013. This $1.3 billion in resiliency funding was allocated to the
           four agencies with the most damage, proportionally to their total damage, to assist them with
           projects intended to increase their systems’ resiliency to future disasters. These funds were
           intended for lower-cost, stand-alone resiliency improvements that could be implemented quickly,
           as well as for resiliency improvements made in tandem with recovery projects for which funds
           were already allocated.



           Appendix. Agency Comments
                                                                                              24



Additionally, FTA did not allocate more resiliency funding to the New York City Department of
Transportation (NYCDOT) than the grantee identified it needed. This report finding is possibly
based on the OIG’s misunderstanding of work FTA had undertaken to develop assessments of
recovery expenses. Although the damage assessment reports also identified potential resiliency
projects, they were not meant to include all resiliency projects, which is why FTA used recovery
expense totals as a proxy to allocate a portion of the resiliency funding. In fact, NYCDOT has
discussed more than $1.2 billion in potential resiliency funding with FTA, far exceeding the $8.5
million currently allocated to it.

FTA’s HURRICANE SANDY DISASTER RELIEF OVERSIGHT PLAN ENHANCES
IT’S PROVEN OVERSIGHT PROGRAMS

FTA already has proven and well-established oversight programs, such as top-to-bottom triennial
reviews of grantees, procurement reviews, financial management reviews and project
management oversight. When addressing the additional oversight-related needs associated with
Hurricane Sandy relief, our guiding principle is to deploy oversight resources in a proactive,
risk‐based and efficient manner; conducting detailed risk assessments for each grantee, and for
every grant and all projects receiving over $100 million in Federal funds. Based on those
assessments, projects and grantees that pose additional risks in key oversight areas will be
monitored more closely. Examples of this additional oversight include:

•   Random sampling of payments to examine eligibility of costs and proper documentation.
•   Closely monitoring the use of insurance proceeds.
•   Construction Grant Agreements will be required for all projects over $500 million and
    will be considered for all projects over $100 million to ensure timely and efficient
    management of the project by the grantee.
•   Requiring independent Integrity Monitors for any recipient receiving over $100 million
    in Disaster Relief Appropriations Act funds to review existing procedures and processes
    for susceptibility to fraud, corruption and cost abuse.

Although FTA does not necessarily concur with all of the findings or recommendations in the
report, FTA will consider them as we move forward. We will continue to work closely with
FEMA and other Federal agency partners, while implementing common-sense requirements
and ensuring our oversight is focused on high-risk areas.

Recommendations and Responses

Recommendation 1: Specify required timeframes to complete grantee and project risk
assessments for all grantees that have received or will receive emergency relief grants.
Response: Concur. Although many grantee assessments are now complete, FTA intends to
include specific timeframes for completing assessments, in general, in an updated Oversight
Plan. FTA plans to issue the updated Oversight Plan by January 31, 2014.




Appendix. Agency Comments
                                                                                                    25


Recommendation 2: Review change orders over an identified threshold or using risk-based
criteria.
Response: Concur. Reviews are currently underway to be identified as part of the project
risk assessment and will clarify thresholds or risk-based criteria in the updated Oversight Plan.
FTA plans to issue the updated Oversight Plan by January 31, 2014.

Recommendation 3: Establish a joint tracking system with FEMA, as described in the
memorandum of agreement (MOA).
Response: Concur. FTA has a joint tracking system, whereby FTA and FEMA notify each
other of grants to transit agencies, to prevent the risk of duplicate payments. Request that this
recommendation be closed as implemented.

Recommendation 4: Check the accuracy of grantees’ reported insurance proceeds
information.
Response: Concur. FTA will include additional risk-based procedures on oversight of
grantee insurance proceeds in its updated Oversight Plan. FTA plans to issue the updated
Oversight Plan by January 31, 2014.

Recommendation 5: Determine whether the assets damaged by Hurricane Sandy were
adequately insured in accordance with requirements in FTA Circular 5010.1D and ensure that
Federal funds are not used for items that should have been insured.
Response: Concur in Part. FTA has reviewed the insurance policies of recipients of its
Emergency Relief (ER) program funds, and is developing policies to determine when or
whether ER funding will not be available for assets in special flood hazard areas that should
have been insured. These policies will be in place by January 31, 2014.

Recommendation 6: Check grantee compliance with FTA’s disposition of damaged or
destroyed asset requirements.
Response: Concur. FTA will include additional risk-based procedures assessing compliance
with disposition requirements in its updated Oversight Plan. FTA plans to issue the updated
Oversight Plan by January 31, 2014.

Recommendation 7: Review a random selection of force account plans.
Response: Concur. FTA will include additional risk-based procedures for review of force
account plans in its updated Oversight Plan. FTA plans to complete the updated Oversight
Plan by January 31, 2014.

Recommendation 8: Finalize criteria to allocate and obligate competitive resiliency funds.
Response: Concur. FTA will publish a Notice of Funding Availability (NOFA) in the
Federal Register for competitive resiliency funds by December 31, 2013.

Recommendation 9: Finalize ERP guidance that incorporates, as appropriate, lessons learned
from emergencies and best practices from Departmental and other Federal emergency relief
guidance.




Appendix. Agency Comments
                                                                                             26


Response: Concur. After completing the final ERP rule, FTA will develop guidance on its
ERP program for transit agencies that incorporates lessons learned and best practices from
other programs. FTA plans to publish this guidance in the Federal Register for notice and
comment by September 30, 2014.

We appreciate this opportunity to offer additional perspective on the OIG draft report. We
also appreciate the courtesies of the OIG staff in conducting this review. Please contact
Lauren Tuzikow at (202) 366-2059 with any questions or requests for additional assistance.




Appendix. Agency Comments
